No. 19-1029

IN THE
SUPREME COURT OF THE UNITED STATES

BETHANY AUSTIN,
Petitioner,

v.

ILLINOIS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici Curiae
First Amendment Lawyers Association and the Marion B. Brechner First
Amendment Project in Support of Petitioner contains 3,217 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed March 19, 2020.

  

Mark William Bennett

Counsel of Record

Bennett & Bennett

917 Franklin Street, Fourth Floor

Houston, Texas 77002

mb@ivi3.com

Counsel for Amici Curiae

First Amendment Lawyers Association

and

The Mario B. Brechner First Amendment Project
